Order

Michigan Supreme Court
Lansing, Michigan

August 13, 2020

Bridget M. McCormack,
Chief Justice

161299 &(7)

David F. Viviano,
Chief Justice Pro Tem

Stephen J. Markman
Brian K. Zahra
Richard H. Bernstein
Elizabeth T. Clement
Megan K. Cavanagh,

MARIO MONTANO,
Plaintiff,
SC: 161299

v

Justices

COURT OF APPEALS,
Defendant.

On order of the Court, the motion to dismiss the complaint for superintending
control is GRANTED. The case is dismissed.
We conclude that the complaint is frivolous and vexatious. MCR 7.316(C). The
plaintiff is ordered to pay the Clerk of this Court $1,000 within 28 days of the date of this
order. We direct the Clerk of this Court not to accept any further filings from the plaintiff
in any non-criminal matter until he has made the payment required by this order. We
further direct the Clerk of this Court not to accept any documents from the plaintiff that
require a fee unless the plaintiff pays the fee at the time of submission.

*««

m
4

1 .

I, Larry S. Royster, Clerk of the Michigan Supreme Court, certify that the
foregoing is a true and complete copy of the order entered at the direction of the Court.
August 13, 2020

b0811

Clerk

Appendix A

Order

Michigan Supreme Court
Lansing, Michigan

September 22, 2020

Bridget M. McCormack,
Chief Justice

161299(10)

David F. Viviano,
Chief Justice Pro Tcm

MARIO MONTANO,
Plaintiff,
SC: 161299

v

Stephen J. Markman
Brian K. Zahra
Richard H. Bernstein
Elizabeth T. Clement
Megan K. Cavanagh,
Justices

COURT OF APPEALS,
Defendant.

On order of the Court, the motion for reconsideration of this Court’s August 13,
2020 order is considered, and it is DENIED, because we are not persuaded that
reconsideration of our previous order is warranted. MCR 7.311(G).

VI3

€

I, Larry S. Royster, Clerk of the Michigan Supreme Court, certify that the
foregoing is a true and complete copy of the order entered at the direction of the Court.
September 22,2020

a0921

Clerk

Appendix B

U.S. Const. Amend. XIV S 1
All persons bom or naturalized in the United States, and subject to the jurisdiction thereof, are
citizens of the United States and of the state wherein they reside. No state shall make or enforce
any law which shall abridge the privileges or immunities of citizens of the United States; nor shall
any state deprive any person of life, liberty, or property, without due process of law; nor deny to
any person within its jurisdiction the equal protection of the laws.

Appendix C

